U.S . GOVERNMENT
PRrNTIN(~  ()H I CE                                                     Robert C. Ta pella
K££I'lNG AMfJUCJ\ J NJ'OIlMEO                                                   Public Pfir1:ter




November 30, 2009

The Honorable Charles E. Schumer
Chairman
Joint Committee on Printing
318 Russell Senate Office Building
Washington, DC 20510

Dear Mr. Chairman:

In accordance with 44 U.S.C. 3903 and the relevant provisions of the Inspector
General Act of 1978, as amended, I am transmitting to Congress the Semiannual
Report of the Office ofthe Inspector General (OIG) for the U.S. Government
Printing Office (GPO), covering the 6 month period of April 1 through September
30,2009, along with the following information as required by law. This letter
meets my statutory obligation to provide comments on the OIG's report and
highlights management actions taken on the OIG's recommendations, which may
relate to more than one reporting period.

General Comments

As provided for by law, this section offers my general comments on the OIG 's
semiannual report and operations.

I.        Management Challenges. In my view, the organizational and
          technological transformation that GPO began implementing in 2003
          remains critical to the future of GPO. To carry out that transformation
          successfully, in this and previous reports the OIG has identified several
          challenges facing GPO 's management that we are various stages of
          addressing.

          I. Sustainable Environmental Stewardship: Management has articulated
             a vision for sustainable environmental stewardship. This vision
             supplements longstanding environmental practices at GPO, including
             the use of printing papers that meet the requirements for recycled
             content contained in the Resource Conservation and Recovery Act of
             1989, as amended, and corresponding Executive Orders; the use of
             printing inks that comply with the requirements of the Vegetable Ink
             Printing Act of 1994; and working with the Environmental Protection
             Agency (EPA) and the District of Columbia to meet the standards for
             emissions of volatile organic compounds (VOC ' s) established by the
             Clean Air Act


731 Nort~ c'P;!o] SI'''''I, NW   WMhirlgton, DC 20401   202·512·1 000       ttopell<l@gpo.go\'
The Honorable Charles E. Schumer - Page 2


          Sustainable environmental stewardship continues to be integrated into every
          aspect of GPO's management of its facility, manufacturing processes,
          acquisitions, and vision for a new platinum LEED-certified building. Over
          the past year, GPO has realized many of its environmental goals including the
          use of more environmentally friendly paper, enhancing the efficiency of our
          fleet operation, installation of a highly reflective roofing system, reduction of
          both solid and hazardous waste, and a reduction in our VOC's.

          GPO is now printing the Congressional Record and the Federal Register on
          100% recycled newsprint. This transition helps the legislative branch reduce
          its overall environmental impact.

          GPO has directly benefited from funding provided to the General Services
          Administration in the American Recovery and Reinvestment Act to upgrade
          its delivery fleet with more fuel-efficient and environmentally-friendly
          vehicles. GPO received 21 such vehicles including 18 alternative flex fuel
          (E85) vehicles and two new hybrid vehicles. Many of these new vehicles will
          aid in the delivery of printed materials to Congress, the White House, and
          Federal agencies.

          Currently, GPO is installing roughly 92,700 square feet of a new roofing
          system. The new roofing system includes several bio-based layers and
          includes a highly reflecti ve coating that will extend the life expectancy ofthe
          roof. The reflective roof membrane is on the Agriculture Department's bio-
          based product list, is Energy Star-rated, and is rated by the Cool Roof Rating
          Council. In addition, this new roofing system qualifies for several LEED
          points. The roof coating not only reduces cooling demands inside the building
          but improves the life expectancy and efficiency of rooftop equipment.

          Over the past several months, GPO has established a voluntary partnership
          with EPA's WasteWise program to monitor waste reduction and prevention
          activities. These efforts successfully diverted over 64% (8,415,900 lbs.) of
          GPO's total waste stream to new and existing recycling streams in 2008.
           Based on Waste Wise's calculations, these actions resulted in the reduction of
          over 15 billion tons of green house gas emissions.

          Another initiative at GPO is to reduce VOC emissions. Throughout the past
          six months, we have been testing new fountain solution concentrates that
          contain no or low VOC's. To date, we are now using a fountain solution
          concentrate on six of our web presses with no VOC's and it is more affordable
          and requires less concentrate that our previous solution.
The Honorable Charles E. Schumer - Page 3


          Finally, in preparation to meet the printing demands of the 21 st century, GPO
          is analyzing the vendor responses received from the Advanced Printing
          Technology Assessment Request for Proposal conducted over the past several
          months. This allowed GPO to open a dialog with industry equipment
          manufacturers to learn more about our production needs and offer solutions
          that both meet our production requirements and have minimal impacts on the
          environment.

      2. Management ofHuman Capital: GPO has made strides in establishing and
         maintaining a diverse workforce. GPO will continue in its efforts to recruit at
         universities and organizations with a diverse population. One achievement is
         the Strategic Initiative Alliance, which was recently formed with California
         State University, Los Angeles, an Hispanic-Serving Institution.

          To address the training aspect of diversity, GPO's Equal Employment
          Opportunity (EEO) and Workforce Development offices worked jointly with a
          training vendor to develop a program entitled "EEO and Discriminatory
          Harassment," which is mandatory for all supervisors and managers. In
          response to the need for more comprehensive diversity training for managers
          and employees, several meetings have been held with qualified vendors who
          can develop a diversity training curriculum for all employees.

          The EEO office is preparing to comply with a House Appropriations
          Committee directive to submit quarterly reports on the progress being made in
          reducing the number ofEEO complaints at GPO.

         GPO's Human Capital (HC) office has completed its work to address each of
         the actions and recommendations required by the Office of Personnel
         Management (OPM) throughout FY 09. To begin, GPO has finalized its long-
         term strategic goals and objectives with the issuance of its FY 2008 Strategic
         Results document.

         HC has conducted a workforce analysis and identified its mission-critical
         occupations and competencies. Further discussion with GPO managers
         regarding positions identified is planned for FY 10. HC also completed
         development of a database of all grade 15 and Senior Level Service positions
         in the agency, including current position descriptions and information
         regarding retirement eligibility for succession planning purposes. HC's
         Workforce Development, Education, and Training (WDET) office developed
         an agency-wide competency model with definitions of the competencies. In
         addition, to further strengthen our ability to perform workforce analysis and
         planning a review ofHC's structure and resource allocation is being
         conducted.
The Honorable Charles E. Schumer - Page 4


          Recognizing the need to improve its data infrastructure, maximize strategic
          partnerships, and to further HC planning and workforce analysis, HC took
          several important steps towards improvement in FY 09. These efforts began
          with the implementation of several new automated systems. The National
          Finance Center's (NFC's) EmpowHR program was implemented to automate
          personnel action processing and allow for increased tracking of actions. USA
          Staffing was implemented to automate the hiring process. In addition, HC
          succeeded in converting all official personnel files to a secure digital format,
          e-OPF, which is accessible to all employees. Finally, HC provided support
          for the implementation ofWebTA, which automated the agency's time and
          attendance processing.

          WDET conducted an agency-wide Training Needs Assessment Survey open
          to all employees from October 21 through November 11,2009. WDET also
          created a process to address training evaluations and measurement for GPO's
          supervisor training series. A baseline of information to be measured when
          evaluating courses was created and an evaluation strategy is currently being
          implemented.

          HC acknowledges the OIG's concerns regarding our on-boarding process. To
          that end, a comprehensive review and analysis of all HC transaction
          processing and on-boarding activities under our control is currently being
          conducted.

      3. Improved Financial Management: The OIG continues to oversee the
         activities of KPMG, the independent public accountant conducting the annual
         financial statement audit. During this period, KPMG commenced work on the
         audit of GPO's FY 09 consolidated financial statements. As part of this audit,
         KPMG will assess the corrective actions planned or taken by GPO to address
         the deficiencies identified during last year's audit.

          Management successfully implemented an integrated system of Oracle
          enterprise software and applications known as the GPO Business Information
          System (GBIS) on May 1, 2009, instead ofthe originally planned date of
          October 1, 2008. The delay was necessary to ensure that proper training,
          development, and testing were performed. The GBIS team also identified
          several new items required for proper functionality that needed to be
          developed and tested prior to going live. It is not anticipated that this delay
          will have a material affect on the financial statement audit. The KPMG audit
          team was able to conclude fieldwork on GPO's legacy systems in the interim,
          and should be able to complete the audit work covering May 1 through
          September 30, 2009, within the new Oracle system. Management is
          developing new written procedures and updating some existing procedures in
The Honorable Charles E. Schumer - Page 5


          response to KPMG's FY 08 audit findings. The implementation ofGBIS
          helped alleviate issues that KPMG identified concerning GPO's reconciliation
          of subsidiary and general ledger accounts using legacy systems.

          Management and KPMG disagreed over the estimated GPO liability for
          passport warranty cost for FY 08. KPMG said there should be no liability
          while management believed some exposure existed and maintained that a
          reserve against the exposure was proper and necessary. During FY 09, GPO
          did not experience any passport warranty claims and also reached agreement
          with the State Department on an updated Memorandum of Understanding
          regarding the production of passports including warranty claim computation
          and treatment. As a result, management now concurs with the KPMG
          recommendation regarding the review and reporting of the passport product
          warranty liability and has accordingly reversed the $1.4 million accrual for
          product warranty liability.

      4. Continuity a/Operations: Development of GPO's continuity of operations
          (COOP) capabilities continues as a top management priority.

         A previous OIG review contained several recommendations designed to
         improve GPO's overall COOP posture, including a recommendation that GPO
         adopt the planning requirements and critical elements identified in Federal
         Preparedness Circular 65, "Federal Executive Branch Continuity of
         Operations" (since then, Federal Continuity Directive I, February 2008, has
         superseded FPC-65, and is now used as the guidance for GPO' s COOP
         activities). GPO continues to review and update its comprehensive COOP
         plan based on the Federal Emergency Management Agency template of key
         COOP components. The plan discusses issues such as essential functions,
         interoperable communications, and delegations of authority as well as testing,
         training, and exercises. In response to the possible HINI flu pandemic, GPO
         developed a Pandemic Flu Plan Annex, which detailed pre-defined .actions for
         specific situations.

         GPO continues to take the necessary steps for enhancing its COOP posture,
         including planning and conducting exercises with scenarios that test alternate
         production facilities and procedures for notifying essential personnel. GPO's
         business continuity team has also continued to work directly with GPO 's
         various business units in support of the COOP program. COOP has worked
         with Congressional Publishing Services to create fly-away kits for Congress.
         These kits contain printing equipment and supplies for emergency printing of
         enrolled bills. GPO's business units are developing individual COOP plans
         that support and further define GPO's overall COOP plan.
The Honorable Charles E. Schumer - Page 6


          Accomplishments during the most recent period included conducting the
          largest, most complex COOP exercise in support of Congress, in August 2009.
          The exercise included many first time participants and provided employees
          and managers with the opportunity to experience working in a COOP
          environment. The after-action report detailed areas for improvement and
          retesting. GPO hosted its first National Preparedness Month fair, which more
          than 300 employees attended. Employees learned about emergency
          preparedness for their families, including how to develop a plan. GPO's
          safety, police, and medical units provided information also. The Pan Flu
          Committee continues to manage the pandemic flu situation. Various
          departments have worked together to share resources and increase employee
          awareness.

      5. Internal Controls: Management concurs with KPMG's recommendations
          regarding internal controls over financial information and is taking corrective
          actions on:

          •   Reporting of general property, plant, and equipment;
          •   Reporting of passport work-in-progress inventory;
          •   Compilation in management review of the consolidated financial
              statements; and
          •   Certain reconciliation controls.

          As noted above, management and KPMG initially disagreed over the
          estimated GPO liability for passport warranty cost for FY 2008. Management
          now fully concurs with the KPMG recommendation regarding the review and
          reporting of the passport product warranty liability.

         Management concurs with the OIG's findings relating to accounts payable
         service billings. During FY 10, all related standard operating procedures
         (SOP's) will be reviewed. Current SOP's will be changed or new SOP's
         written as appropriate.

         Management previously concurred with KPMG's recommendations relating
         to the processing of human capital information. HC has worked throughout
         FY 09 to implement the following corrective actions:

          •   A review of National Finance Center (NFC) access rights was conducted
              in early 2008 and requests for access were modified based on HC roles
              and responsibilities. HC staff conducts an online review and validates the
              accuracy of each personnel action entered. At the time the audit was
              conducted, this review was conducted by the HC staff member who
              entered that document. However, with the implementation ofEmpowHR,
The Honorable Charles E. Schumer - Page 7


              each personnel action is reviewed by either a HC specialist or senior HC
              specialist. This review is tracked in EmpowHR, capturing the date and
              time the action was accessed and what fields, if any were modified. HC
              managers included accuracy as a measured goal in each HC assistant and
              specialist performance plan in FY 09; employees are being measured
              against these plans.

          •   A process has been established and implemented that provides appropriate
              controls over the use of the override code for the input of salanes that are
              not on pay tables. This action is consistent with the KPMG audit
              recommendation.

          •   Additionally, in order to reduce the likelihood of errors and to improve the
              level of service, a complete Quality Assurance review and analysis of all
              HC transaction processing and customer services was requested. As a
              result, GPO's organizational architects have begun a comprehensive
              review and analysis of all HC transaction processing.

          Management concurs with KPMG's recommendation on information
          technology general controls. GPO's Information Technology and Systems
          unit is developing a plan to address implementation of the recommendations.
          The recommendations KPMG made will require additional resources to
          implement. Therefore those needs will be coordinated with GPO's Planning
          and Strategy Board for investment review and approval.

      6. Security and Intelligent Documents: GPO's Security and Intelligent
         Documents (SID) business unit continued to be the Federal Government's
         leading provider of secure credentials and identity documents in two secure
         production facilities located in Washington, DC, and Stennis, MS. During FY
         09, in l!ddition to manufacturing more than 10.5 million passports for the
         Department of State, SID also printed, personalized, and distributed more than
         600,000 Trusted Traveler border crossing card credentials in support of the
         Department of Homeland Security's Customs and Border Protection agency
         from its new Secure Credential Center (SCC) located at the GPO central
         office in Washington, DC, more than 45,000 Medicare identification
         credentials used in Puerto Rico in support of a requisition from the
         Department of Heath and Human Services, and more than 10,000 secure law
         enforcement credentials to support the Capital Police during the Presidential
         inauguration ceremonies.

          During the second halfofFY 09, SID completed the rollout of the 5S Program
          in both its DC and MS production sites and reported significant improvements
          to the cleanliness and orderliness of the work places along with more efficient
The Honorable Charles E. Schumer - Page 8


          and streamlined work flows. Additionally, SID completed the full
          documentation of process work flows and production work instructions to
          underpin a secure library that will provide a foundation for ISO 9000
          certification.

          Finally, SID continued to work toward the certifications required for
          processing, personalizing, and distributing HSPD-12 compliant identification
          credentials in the SCC with a target of April 2010 for capability rollout. This
          certification will allow GPO's SCC to more comprehensively serve Federal
          agencies in the area of secure credentials.

      7. Protection of Sensitive Information: GPO has been working diligently to
         address this challenge. For several months, and particularly within all the
         organizations under the Chief Management Officer where the bulk of the PH
         resides or is used, there has been a concerted effort to identify and locate all
         PH within the records maintained in those offices, in both digital or hard copy
         files. That effort has produced a comprehensive assessment of where the PH
         resides, how it is needed and used to accomplish the mission, and what
         controls are in place to protect the PH from inadvertent or malicious
         disclosure. Where needed, controls have been enhanced. Employees are
         continuing to be trained to recognize and protect sensitive information. In
         addition, steps have been taken to eliminate or reduce the need for PH except
         where it would frustrate the achievement of a needed task or operation.

          In addition to addressing the PH that may be maintained within agency
          records, there has been a similar effort to review all print contracts that
          involve the receipt or handling of PH. It is and has been GPO's practice to
          include in all such contracts provisions that impose on the contractor an
          obligation to safeguard any PH that comes to it in the course of performance
          on its contract. GPO is working to enhance existing controls to prevent any
          deviations from this practice.

          At the same time, GPO has been developing an internal directive that will
          mandate that a series of steps be taken to enhance the policies for addressing
          this issue in a comprehensive manner. As part of this agency-wide effort, a
          Privacy Officer is to be appointed, who will be assisted by a program manager
          reporting to the Privacy Officer. We expect to be able to share the final draft
          of this directive with the OIG in December 2009.

      8. Information Technology and Systems (IT&S) Management: GPO successfully
         established an Enterprise Architecture program, which has brought value to
         investment and technical strategy decisions at the agency. This has also
The Honorable Charles E. Schumer - Page 9


          improved communication flow with business units at GPO on IT systems,
          technology and investments.

          GPO continues to work to comply with the Federal Information Security
          Management Act of2002 (FISMA), and made progress in FY 09. When the
          OIG identifies gaps in GPO's systems, those items are considered as high-
          priority action items within IT&S. As a result ofthese audits and IT&S
          activities, compliance was enhanced this year and continues to improve.

          Significant enhancements to GPO 's Federal Digital System (FDsys) were
          implemented during FY 09, which included the addition of many new
          collections: In addition, progress was made toward the establishment of a
          failover system for FDsys in the legislative branch alternate computing
          facility. GPO continued to take action on the steps necessary to allow the
          eventual sunset of GPO Access, working in close consultation with
          congressional and other stakeholders. GPO enhanced its services to Congress
          with respect to document authentication during FY 09 in that congressional
          Bills are now digitally signed and authenticated as they are posted online to
          FDsys and GPO Access. Modifications to GPO's Public Key Infrastructure
          (PKI) capability were successfully implemented during the year to include
          generation capability for certificates supporting HSPD-12/PIV cards, thereby
          continuing to provide a full set of Federal PKI services and capabilities that
          are important in the Shared Service Provider (SSP) arena.

          GPO' s launch of GBIS represents a significant step forward in transitioning
          GPO's critical financial information systems onto new and sustainable
          technology. Both FDsys and GBIS were supported with independent
          verification and validation (IV&V) activities coordinated with the OIG.
          IV& V activities are anticipated for the future activities on FDsys, but may not
          be required for GBIS since future GBIS development activities will consist of
          incremental enhancements.

      9. Business Development and Customer Service: Management concurs with the
         OIG and continues to make progress is this area. Print Procurement has
         undertaken an extensive business process redesign aimed at responsiveness to
         the 21 st century needs of our customers. SOP's will improve consistency and
         hence the quality of customer service regardless of what team or individual
         within GPO is providing it. Implementations will continue throughout the
         current fiscal year.

          GPO has additional initiatives aimed at improving business development and
          service for our customer agencies. These initiatives include creating and
The Honorable Charles E. Schumer - Page 10


          staffing a specialized marketing function and building a foundation for
          improved sales coverage and customer focus.

          A significant improvement in customer service was made during this reporting
          period. Print Procurement incorporated a GPS tracking system into operations
          to monitor the location of messenger vehicles and make en-route adjustments
          to better serve our customers . . Print Procurement in collaboration with other
          GPO business lines is developing an automated Standard Form 1 (SF -I) to be
          used by customer agencies to requisition printing. It is also building a
          communication and status (COMSTAT) center to track the status of customer
          jobs. Both ofthese initiatives should be completed by early 2010.

      10. Acquisitions: Management concurs with the OIG and continues to make
          progress is this area. Following the model established in the Services
          Acquisition Reform Act of2003, GPO's Acquisitions Services (AS) has
          adopted the training for acquisition professionals as offered by the Federal
          Acquisition Institute (FAI). This program was fully implemented in FY 08.
          To date, all AS contracting officers are Level I certified; 90% of all AS
          contracting officers PG-12 and above are Level II certified; and 85% of the
          Senior Acquisition staff PG-14 and above are Level III certified. Working
          with GPO's Workforce Development office, the F AI -equivalent training is
          being provided to employees onsite. Currently, all classes are offered at GPO
          with both AS and Printing Procurement contracting officers enrolled in the
          training.

          In an effort to retain talent in acquisitions, management has worked with HC
          to review contract specialist position descriptions and to fill jobs, when
          applicable, using a career ladder format, i.e. PG-9/11112; PG-12/13; PG-
          13/14.

          AS has included in its performance goal for FY 10 to undergo an independent
          assessment of AS. This assessment will consist of surveying key business
          unit stakeholders and acquisition staff members to determine strengths,
          weaknesses, and risks and identify areas for improvement.

II.    Audits and Inspections. During the reporting period, the OIG issued 6 new
       audit and assessment reports, with recommendations to help improve operational
       performance:

      •   Oracle Database Security for GPO's Passport Printing and Production
          System (Audit Report 09-09, July 16, 2009). This was an audit to evaluate
          security configurations for the Oracle databases supporting production of
                                                                                           .- --,   -- ";;'- ' -- .:. :~'




The Honorable Charles E. Schumer - Page II


          passports. The report contained recommendations to strengthen passport
          production security and reduce the risk of system compromise.

      •   GPO PKi Certification Practices Statement Conformity with the Federal PKi
          Common Policy Framework and the GPO Certificate Policy - Attestation
          Report (Assessment Report 09-10, September 23,2009). This assessment
          concluded that GPO's certification practices statement conforms with the
          Federal PKI common policy framework and GPO's certification policy. This
          assures Federal agencies that GPO is a qualified PKI service provider
          operating under the Federal common PKI common policy framework.

      •     WebTrust Assessment a/GPO's Public Key Infrastructure Certification
            Authority -Attestation Report (Assessment Report 09-11, September 23,
            2009). This assessment resulted in an unqualified, or clean, opinion that
          . GPO's management assertion related to the adequacy and effectiveness of
            controls over its PKI certification authority operations is, in all material
           respects, fairly stated based on the American Institute of Certified Public
           Accountants WebTrust for certification authorities criteria. This assessment
            further assures Federal agencies of GPO's status as a qualified PKI service
           provider.

      •   Federal Digital System (FDsys) Independent Verification and Validation
          (IV&V) - Seventh Quarter Report on Risk Management, Issues, and
          Traceability (Assessment Report 09-12, September 30,2009). This
          assessment continued the ongoing IV& V evaluation associated with the
          development of FDsys. This evaluation provides quarterly observations and
          recommendations on the FDsys program' s technical, schedule, and cost risks,
          as well as related issues. This quarterly report included mUltiple
          recommendations designed to improve FDsys program management with
          which management generally concurred, with the exception of one.
          Regarding that recommendation, the FDsys program management office
          (PMO) concurs that system issues identified during user acceptance testing
          (UAT) should be entered as program tracking reports (PTR's). The PMO
          received various comments during the UAT process. Some of these comments
          were issues with the system. These issues were entered as PTR' s. Other
          comments received were previously identified issues or were not actual issues
          with the system. These comments were not entered as PTR's. The PMO
          evaluated all responses received and entered PTR's for any issue that was
          actually a system issue. The PMO concurs that UAT reports results and
          resolutions should be disseminated to participants.

      •   Accounts Payable Service Billings (Audit Report 09-13, September 30, 2009).
          This audit identified measures to improve controls over accounts payable,
The Honorable Charles E. Schumer - Page 12


          including GPO's processes and procedures for invoice payment. Management
          has concurred with the audit report's recommendations and has planned
          responsive corrective actions.

      •   GPO's Workers' Compensation Programs (Audit Report 09-14, September
          30, 2009). This audit evaluated the adequacy of controls over GPO's
          Workers' Compensation Program as established by the Federal Employees'
          Compensation Act and administered by the Department of Labor. The audit
          concluded that GPO's program is being operated in accordance with
          appropriate Federal guidelines, regulations, and directives, and that there have
          been major improvements in program performance since the last audit in
          2002, including a reduction in workers' compensation benefits paid on GPO's
          behalf and a decrease in GPO workers' compensation claimants. However,
          the report also included recommendations for procedural and policy
          improvements to further enhance and strengthen GPO's Workers'
          Compensation Program. Management has concurred with these
          recommendations and will take responsive actions.

      FDsys IV &V. Management has the following response to the OIG's comments
      on FDsys IV&V findings:

      •   Functionality. As GPO approached the launch ofFDsys, we determined that
          the lowest risk approach would be to phase in functionality (starting with
          access to publications and followed by submission of publication) and phase
          in collections (starting with the most frequently accessed publications).
          Therefore we agree that the actual functionality is less than originally planned,
          but the approach we have taken has reduced our risk while we complete
          planned functionality.

      •   Public. Beta. GPO management accepted the position to rollout FDsys in a
          public beta structure early in calendar 2009. By executing the launch in this
          way, we have had the opportunity to discover performance issues and resolve
          them without affecting GPO's integrity to provide uninterrupted access
          Federal publications. The redesign discussed in the IV & V language was a
          change to better optimize the performance of Documentum elements within
          FDsys, and redistribute content processing functionality to a more scalable
          structure outside ofthe Documentum framework. This change was a result of
          performance issues encountered while processing the History of Bills
          collection and the Congressional Record Index collection, two very large and
          complex sets of data. The end result was enhanced performance without
          disruption to access to existing publications.
The Honorable Charles E. Schumer - Page 13


          Utilizing this strategy has allowed the FDsys team to make system
          enhancements as required without significant disruptions in service. Further,
          GPO has established stringent and high-integrity guidelines for making FDsys
          the system of record. These guidelines include completing the migration of
          GPO Access content into FDsys and establishing a tested, offsite backup
          instance. Content migration is progressing and the backup instance is being
          built now and will be operational in FY 10, allowing FDsys to become the
          system of record, initiating the sunset process for GPO Access.

      •   Cost. When the initial cost estimates were developed for FDsys in late 2004,
          only a concept of operations was available, with the development of
          functional requirements just starting. The first version of the functional
          requirements was not released until May 2005. Nonetheless, an estimate was
          established for the development ofFDsys. This estimate did not take into
          account the total cost associated with migrating content from GPO Access to
          FDsys, which proved to be more time consuming and costly than we
          anticipated. Originally, in late 2004, GPO decided to establish a backup
          capability for GPO Access that included hosting GPO Access content offsite
          in an alternate (non-WAIS) data structure, and data migration activities were
          underway to support this initiative. Our plan was to utilize this data migration
          work and use it to move GPO Access content into FDsys. Unfortunately, the
          data migration activity did not result in a sufficiently robust transformation of
          the GPO Access content, and additional work was required.

          GPO concurs that the cost of Release I to date has exceeded the original
          estimate. However, the original planned cost of approximately $16 million
          for Release 1 concentrated on system functionality, and did not include all of
          the costs we subsequently encountered with developing and integrating the
          software code required to support data migration.

      •   Content in System. GPO concurs that not all collections are available in the
          system. GPO chose to make difficult, high demand collections available
          rather than to work on easier but less in demand collections. As a result,
          based not only on the number of collections but on usage statistics, volume,
          and other measures, the vast majority of the high-demand content is currently
          available in FDsys. This content will be further augmented once the Code of
          Federal Regulations is ingested by the end of2009, with the remaining
          content to follow.

      •   System ofRecord. GPO concurs that FDsys is not yet the system of record.
          GPO has determined that criteria other than just "all content in FDsys" be met
          before FDsys can become the system of record. Logical activities such as
          establishing COOP capability, testing, and user training must also be
The Honorable Charles E. Schumer - Page 14

          completed to ensure the success of FDsys. As indicated above, the FDsys
          team is working diligently to ensure that FDsys becomes the system of record
          in FY10.

      •   Schedule. As the IV& V report indicates, FDsys functionality was delivered
          behind schedule. However, the root cause of this delay can be traced to issues
          with our Master Integrator (MI). While most of the work done with the MI is
          being used by FDsys, the fact is that these issues significantly delayed the
          initial production version ofFDsys. By realigning the program and taking
          control of the integration of FDsys, we believe the FDsys team has taken the
          steps necessary to deliver this system as quickly and as cost effectively as
          possible.

      Other DIG Audits and Inspections. During the reporting period, KPMG began
      work on the audit of GPO's FY 09 financial statements, pursuant to a multiyear
      contract. The OIG serves as the contracting officer' s technical representative in
      the conduct of this work.

      Prior Period Outstanding Recommendations. As required by law, this section
      summarizes management's actions to address OIG recommendations still
      outstanding from previous reporting periods, based on a report generated by
      GPO's Office of Quality Assurance:

      •   GPO Network Vulnerability Assessment (Assessment Report 06-02, March 2B,
          2006). The two remaining recommendations have been resolved but will
          remain open pending management's completion of agreed to corrective
          actions.

      •   Report on GPO's Compliance with the Federal Information Security
          Management Act (FISMA) (Assessment Report 07-09, September 27, 2007).
          Four of the seven remaining recommendations have been resolved and 3 have
          been partially resolved. Management continues to work toward implementing
          corrective actions for the seven open recommendations.

      •   GPO Network Vulnerability Assessment (Assessment Report OB-OI, November
          1,2007). One of the two remaining recommendations has been resolved and
          the other is partially resolved; both remain open pending completion of the
          network device replacement project.

      •   Operating System Security for GPO 's Passport Printing and Production
          System (Assessment Report 08-06, March 31, 2008). NTLMv2 is supported
          by all operating systems in use in passport production. Therefore, enabling
          this feature should present no significant operational risk. Management
          continues to work on closing this recommendation.
The Honorable Charles E. Schumer - Page 15


      •   Diversity Management Programs at GPO (Audit Report 08-10, September 11,
          2008). Two recommendations remain open. As the OIG's report states,
          management has begun implementing the remaining essential elements of the
          Equal Employment Opportunity Commission's Management Directive 715
          and the leading diversity management practices identified by the Government
          Accountability Office.

      •   Assessment of GPO's Transition Planningfor Internet Protocol Version 6
          (Assessment Report 08-12, September 30,2008). Management has either
          planned or taken responsive corrective action to the one remaining
          recommendation.

      •   Federal Digital System (FDsys) Independent Verification and Validation
          (IV& V) - Fourth Quarter Report on Risk Management, Issues, and
          Traceability (Assessment Report 09-01, November 4,2008). The three
          remaining recommendations are resolved but will remain undispositioned and
          open for reporting purposes until corrective actions are completed.

      •   Audit of GPO's Passport Printing Costs (Audit Report 09-02, December 22,
          2008). One of the three remaining recommendations is resolved pending
          finalization of the 5-year capital investment plan for passports, and
          management has planned actions that are responsive to the other two
          recommendations.

      •   Federal Digital System (FDsys) Independent Verification and Validation
          (IV& V) - Fifth Quarter Report on Risk Management, Issues, and Traceability
          (Assessment Report 09-03, December 24,2008). Management's proposed
          actions are responsive to and resolve the four remaining recommendations.
          The recommendations remain open until the actions are verified by the IV&V
          team ..

      •   Federal Digital System (FDsys) Independent Verification and Validation
          (IV& V) - Security Analysis Report (Assessment Report 09-04, December 24,
          2008). Management's proposed actions are responsive to and resolve the
          three remaining recommendations. The recommendations remain open until
          the actions are verified by the IV&V team.

          Federal Digital System (FDsys) Independent Verification and Validation
          (IV& V) - Sixth Quarter Report on Risk Management, Issues, and Traceability
          (Assessment Report 09-07, March 20,2009). The three remaining
          recommendations are resolved but will remain open pending review by the
          IV&Vteam.
The Honorable Charles E. Schumer - Page 16


       •     Oracle E-Business Suite Release 2 Independent Verification and Validation
             (IV&V) - Technical (Assessment Report 09-08, March 31, 2009). The
             actions taken and proposed are responsive to and resolve one remaining
             recommendation, but it will remain open until the IV& V team reviews the
             documented plan and observes post implementation support.

III.   Investigations. During the reporting period, the OIG performed investigative
       work on workers' compensation fraud, procurement fraud, employee misconduct,
       and other matters. A principle highlight was the investigation of GPO's
       publication and online posting of House Document 111-37, describing, among
       other things, nuclear activities at various sites in the United States. While the
       investigation found no wrongdoing on the part of GPO, it contained a number of
       recommendations to help identify and prevent unwanted disclosures of sensitive
       information. GPO will implement these recommendations. The OIG's report was
       also made available to the GAO in its investigation of the dissemination of
       H.Doc. 111-37 as requested by the Speaker of the House of Representatives.
       During the reporting period, the OIG issued a report of investigation that
       disclosed that four employees made false statements during the conduct of their
       employment; as a result, GPO has issued notices to the employees of its intent to
       terminate their employment. The OIG also completed its program of providing
       training on procurement fraud to GPO's regional offices nationwide. These
       activities demonstrated the value of OIG investigators in protecting GPO from
       waste, fraud, and abuse.

IV.    Statistical Tables.

       Statistical tables as required by law are enclosed.

If you need additional information with respect to this report, please do not hesitate to
contact Mr. Andrt<w M. Sherman, Director of Congressional Relations, on 202-512-1991,
or bye-mail at asherman@gpo.gov.

Sincerely,



ROBERT C. TAPELLA
Public Printer

Enclosures
The Honorable Charles E. Schumer - Page 17


cc:   The Honorable Robert Brady, Vice Chairman
      The Honorable Dan Lungren, Ranking Minority Member
      The Honorable Patty Murray
      The Honorable Tom Udall
      The Honorable Robert Bennett
      The Honorable Saxby Chambliss
      The Honorable Michael Capuano
      The Honorable Susan A. Davis
      The Honorable Kevin McCarthy
ENCLOSURE I

                   STATISTICAL TABLE FOR SECTION S(b)(2) - DISALLOWED COSTS

                                                         Number of        Disallowed Costs
                                                        Audit Rel20rts Questioned UnSUI2I20rted
A.      Audit reports for which final action I had
        not been taken by the commencement
        of the reporting period                                0               0           0

        Audit reports issued during the period
        with potential disallowed costs                        0               0           0

        Total Costs                                            0               0            0

B.      Audit reports on which management
        decisions' were made during the
        reporting period

        ( i.)   Dollar value of disallowed costs              0            0               0

       (ii.)    Dollar value of allowed costs                 0            0               0

C.     Audit reports for which final action
       was taken during the period, including:

       ( i.)    Dollar value of disallowed costs               0           0               0
                that were recovered by management
                through offsets against other
                contractor invoices or nonpayment

       (ii. )   Dollar value of disallowed costs               0           0               0
                that were written off by management

D.     Audit reports for which no final                        0           0               0
       action has been taken by the end
       of the reporting period




I As defined by law, the term "final action" means the completion of all actions that the management of
an establishment has concluded, in its management decision, are necessary with respect to the findings
and recommendations included in an audit report, and in the event that the management concludes no
action is necessary, final action occurs when a management decision has been made.
2 As defined by law, the term "management decision" means the evaluation by management of the
findings and recommendations included in an audit report and the issuance of a final decision by
management concerning its response to such findings and recommendations, including actions concluded
to be necessary.
ENCLOSURE II


       STATISTICAL TABLE FOR SECTION 5{b}{3}- FUNDS PUT TO BETTER USE
                   AGREED TO IN A MANAGEMENT DECISION

                                                          Number of       Dollar Value of
                                                          Audit ReQorts   Recommendations
A.        Audit reports for which final action3 had
          not been taken by the commencement of
          the reporting period                                   0                   0

          Audit reports for which final action had
          not been taken for new reports issued
          during the reporting period with potential
          funds put to better use
                                                                0                    0
B.        Audit reports on which management
          decisions4 were made during the reporting
          period                                                0                    0

C.        Audit reports for which final action was
          taken during the reporting, including:

          ( i.)    Dollar value of recommendations
                   that were actually completed                 0                    0

          (ii.)   Dollar value of recommendations
                  that management has subsequently
                  concluded should not or could not
                  be implemented or completed                   0                    0

D.        Audit reports for which no final action has
          been taken by the end of the reporting period         0                    0




3   Same definition as in Enclosure I.
4   Same definition as in Enclosure I.
